     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General


                                                                          Office of Audit Services, Region I
                                                                          John F. Kennedy Federal Building
                                                                           Room 2425
                                                                           Boston, MA 02203



November 3, 2010

Report Number: A-01-10-00523

Ms. Jennifer Otten
Audit and Controls Manager
National Heritage Insurance Corporation
402 Otterson Drive
Chico, CA 95928

Dear Ms. Otten:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Verification of Mid Coast Hospital’s Refund of Place-of-
Service Overpayments for Calendar Years 2004-2007. We will forward a copy of this report to
the HHS action official noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact David Lamir, Audit Manager, at (617) 565-2704 or through email at
David.Lamir@oig.hhs.gov. Please refer to report number A-01-10-00523 in all correspondence.

                                             Sincerely,



                                             /Michael J. Armstrong/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Ms. Jennifer Otten


Direct Reply to HHS Action Official:

Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare and Medicaid Services
601 East 12th Street, Room 235
Kansas City, Missouri 64106
Department of Health & Human Services
           OFFICE OF
      INSPECTOR GENERAL




      VERIFICATION OF
MID COAST HOSPITAL’S REFUND
    OF PLACE-OF-SERVICE
       OVERPAYMENTS
    FOR CALENDAR YEARS
         2004-2007



                      Daniel R. Levinson
                       Inspector General

                       November 2010
                       A-01-10-00523
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Medicare Part B pays for services that physicians provide to program beneficiaries. Although
physicians routinely perform many of these services in a hospital outpatient department or a
freestanding ambulatory surgical center (ASC), some of these services may also be performed in
nonfacility settings, such as a physician’s office, an urgent care center, or an independent clinic.
To account for the increased overhead expense that physicians incur by performing services in
nonfacility locations, Medicare reimburses physicians at a higher rate for certain services
performed in these locations. However, when physicians perform these same services in facility
settings, such as hospital outpatient departments or ASCs, Medicare reimburses the overhead
expenses to the facility and the physician receives a lower reimbursement rate.

Physicians are required to identify the place of service on the health insurance claim forms that
they submit to Medicare contractors. The correct place-of-service code ensures that Medicare
does not incorrectly reimburse the physician for the overhead portion of the payment if the
service was performed in a facility setting.

Our previous nationwide reviews found that several contractors overpaid physicians who did not
correctly identify the place of service on their claims. These audits identified over a million
nonfacility-coded physician services that matched outpatient hospital claims for the same type of
service provided to the same beneficiary on the same day. These reviews identified numerous
instances of Mid Coast Hospital’s physicians being overpaid by NHIC because claims submitted
contained an incorrect place-of-service code.

Mid Coast Hospital (the Hospital) submits claims for the overhead expenses of medical services
performed at the Hospital. In addition, the Hospital also bills on behalf of its physicians, for
their Part B physician services. As the Medicare contractor for hospital and physicians in Maine,
National Heritage Insurance Corporation (NHIC) processes and pays the Hospital’s claims for
Medicare outpatient services and its claims for physician services.

OBJECTIVE

The objective of our audit was to determine the amount of overpayments for claims with place-
of-service coding errors submitted by the Hospital to NHIC for calendar years (CYs) 2004
through 2007.

SUMMARY OF FINDING

We determined that the Hospital submitted claims with overpayments totaling $208,486 for
physician services for CYs 2004 through 2007. The Hospital, billing on behalf of its physicians,
incorrectly coded these claims by using nonfacility place-of-service codes for services that were
actually performed in one of the Hospital’s outpatient facilities. To date, the Hospital has made
refunds to NHIC for overpayments totaling $146,125.



                                                  i
RECOMMENDATIONS

We recommend that NHIC:

   •   accept the Hospital’s final payment of $62,361 to complete its refund of $208,486 for
       overpayments resulting from coding errors on claims submitted on behalf of Hospital
       physicians for CYs 2004 through 2007.


NATIONAL HERITAGE INSURANCE CORPORATION COMMENTS

NHIC concurred with our recommendation and accepted the agreed upon final payment of
$62,361. NHIC’s comments are included in their entirety as the Appendix.




                                               ii
                                           TABLE OF CONTENTS

                                                                                                                                Page

INTRODUCTION................................................................................................................1

         BACKGROUND ........................................................................................................1
             Medicare Part B Payments for Physician Services ...........................................1
             Medicare Reimbursement for Practice Expense ...............................................1
             Prior Office of Inspector General Reports ........................................................1
             Mid Coast Hospital …...………………………………………………………2

          OBJECTIVE, SCOPE, AND METHODOLOGY .....................................................2
              Objective ...........................................................................................................2
              Scope .................................................................................................................2
              Methodology .....................................................................................................3

FINDING AND RECOMMENDATIONS .........................................................................3

          PAYMENTS BASED ON INCORRECT PLACE OF SERVICE ............................4
             Medicare Requirements ....................................................................................4
             Results of Review .............................................................................................4
             Inadequate Billing Controls ..............................................................................4
             Conclusion ........................................................................................................5

          RECOMMENDATIONS ...........................................................................................5

          NATIONAL HERITAGE INSURANCE CORPORATION COMMENTS.............5


APPENDIX

          NATIONAL HERITAGE INSURANCE CORPORATION COMMENTS




                                                                     iii
                                   INTRODUCTION

BACKGROUND

Medicare Part B Payments for Physician Services

Medicare Part B pays for services that physicians provide to program beneficiaries.
Physician services include medical and surgical procedures, office visits, and medical
consultations. These services may be provided in facility settings, such as hospital
outpatient departments and freestanding ambulatory surgical centers (ASC), or in
nonfacility locations, such as physician offices, urgent care centers, and independent
clinics.

Physicians are paid for services according to the Medicare physician fee schedule. This
schedule is based on a payment system that includes three major categories of costs
required to provide physician services: practice expense, physician work, and
malpractice insurance.

Medicare Reimbursement for Practice Expense

Practice expense reflects the overhead costs involved in providing a service. To account
for the increased practice expense that physicians generally incur by performing services
in their offices and other nonfacility locations, Medicare reimburses physicians at a
higher rate for certain services performed in these locations rather than in a hospital
outpatient department or an ASC. Physicians are required to identify the place of service
on the health insurance claim forms that they submit to Medicare contractors. The
correct place-of-service code ensures that Medicare does not incorrectly reimburse the
physician for the overhead portion of the service if the service was performed in a facility
setting.

Medicare claim form instructions specifically state that each provider or practitioner is
responsible for becoming familiar with Medicare coverage and billing requirements.
Some physician offices submit their own claims to Medicare; other offices hire billing
agents to submit their claims. Physicians are responsible for any Medicare claims
submitted by billing agents.

Prior Office of Inspector General Reports

Our previous nationwide reviews (A-01-08-00528 and A-01-09-00503) found that
several contractors overpaid physicians who did not correctly identify the place of service
on their claims. These audits identified over a million nonfacility-coded physician
services that matched outpatient hospital claims for the same type of service provided to
the same beneficiary on the same day. Our recommendations in those reports called for
the Medicare contractors to educate physicians regarding proper billing, recover
identified overpayments, and analyze postpayment data to detect and recover



                                             1
overpayments for improperly billed claims. The Medicare contractors and CMS
generally concurred with our recommendations.

Mid Coast Hospital

Mid Coast Hospital (the Hospital) is a 92 bed acute-care hospital located in Brunswick,
Maine. The Hospital submits claims for the overhead expenses of medical services
performed at the hospital. In addition, the Hospital also bills on behalf of its physicians,
for their Part B physician services. As the Medicare contractor for hospitals and
physicians in Maine, National Heritage Insurance Corporation (NHIC) processes and
pays the Hospital’s claims for Medicare outpatient services and its claims for physician
services.

Our nationwide reviews identified numerous instances of overpayments by NHIC to the
Hospital for physician claims that contained an incorrect place-of-service code in
calendar years (CYs) 2005 through 2007. The Hospital’s officials insisted on refunding
all overpayments received resulting from these place-of-service coding errors. Based on
its own overpayment calculations, the Hospital to date has sent NHIC refund checks
totaling $146,125 for the period April 2004 through December 2007. 1 NHIC adjusted the
2007 claims in its active data files. However, NHIC was unable, without our audit
verification, to accept refunds for Hospital determined overpayments related to the 2004
through 2006 claims that were archived and no longer available in NHIC’s active data
files.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

The objective of our audit was to determine the amount of overpayments for claims with
place-of-service coding errors submitted by the Hospital to NHIC for CYs 2004 through
2007.

Scope

Based on NHIC’s request, we performed a limited scope review to determine the
accuracy of overpayments to be refunded by the Hospital for claims with physician place-
of-service coding errors for CYs 2004 through 2007.

Our audit covered 19,129 nonfacility-coded physician services valued at $827,882 that
were provided in CYs 2004 through 2007 and that matched hospital outpatient claims for
the same type of service provided to the same beneficiary on the same day.


1
    The Hospital refunded $48,664 in July 2008, for the 2007 claims, and then in 2010, sent
    refund checks totaling $97,461 for earlier years pending our determination of the total
                  overpayment amounts (total refunds to date of $146,125).

                                              2
The objective of our audit did not require an understanding or assessment of the complete
internal control structure at the Hospital. Therefore, we limited our review of internal
controls to the billing controls in place at the Hospital to prevent future program
overpayments resulting from place-of-service billing errors.

We conducted our fieldwork from July through August 2010.

Methodology

To accomplish our objective, we:

   •   reviewed applicable Medicare laws and regulations;

   •   used data from our prior place-of-service reviews for CYs 2005-2007 to identify
       all office-coded physician claims that matched claims submitted by the Hospital
       for the same service performed for the same beneficiary on the same date;

   •   calculated the difference for each of these claims between the amount paid and
       the amount that would have been paid had the place-of-service been coded
       correctly;

   •   estimated CY 2004 overpayment amounts using our data files from CYs 2005 and
       2006;

   •   obtained support for the Hospital-calculated overpayments on claims with place-
       of-service errors in CYs 2004 through 2007 and Hospital refunds made;

   •   compared our data with the Hospital’s support to verify the accuracy of the
       overpayments determined and the completeness of the refund; and

   •   discussed the results of our review with officials of both the Hospital and NHIC.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objective.

                      FINDINGS AND RECOMMENDATIONS

We determined that the Hospital submitted claims with overpayments totaling $208,486
for physician services for CYs 2004 through 2007. The Hospital, billing on behalf of its
physicians, incorrectly coded these claims by using nonfacility place-of-service codes for
services that were actually performed in one of the Hospital’s outpatient facilities. To
date, the Hospital has made refunds to NHIC for overpayments totaling $146,125.


                                            3
PAYMENTS BASED ON INCORRECT PLACE OF SERVICE

Medicare Requirements

Medicare payment for physician services is based on the lower of the actual charge or the
physician fee schedule amount. 2

For a physician to receive the higher nonfacility practice expense payment for a service,
the service must meet the requirements of 42 CFR § 414.22(b)(5)(i)(B), which, during the
audit period, provided: “The higher non-facility practice expense RVUs [relative value
units] apply to services performed in a physician’s office, a patient’s home, a nursing
facility, or a facility or institution other than a hospital or skilled nursing facility,
community mental health center, or ASC performing an ASC approved procedure.”
CMS publishes a quarterly physician fee schedule in the Federal Register showing those
services that have a higher payment rate if performed in a nonfacility setting.

Results of Review

The Hospital submitted 19,129 incorrectly coded claims for physician services for CYs
2004 through 2007. The Hospital, billing on behalf of its physicians, incorrectly coded
these claims by using nonfacility place-of-service codes for services that were actually
performed in one of the Hospital’s outpatient facilities. When these services were billed
with the incorrect office place-of-service code, the physicians were paid the higher
nonfacility practice expense payment, to which they were not entitled. As a result, NHIC
incorrectly reimbursed the Hospital on behalf of its physicians for the overhead portion of
their services.

By repricing claims using the correct place-of-service code, we determined that NHIC
overpaid the Hospital, on behalf of its physicians, $208,486 for the 19,129 services that
the Hospital had billed incorrectly from April 2004 through December 2007.

Inadequate Billing Controls

Sample items from our prior nationwide reviews identified that the Hospital did not have
adequate controls to ensure that its physician services claims were billed in accordance
with Medicare regulations during CYs 2005 through 2007. At that time, the Hospital
identified that these coding errors resulted from a software change that occurred in April
2004. Specifically, an undetected flaw in the design or implementation of the software
used for billing physician services claims caused all physician services claims to be
submitted with a nonfacility location as the place of service.

We verified that the Hospital had corrected the cause of the coding errors in December
2007 by correcting its billing software for physician services performed at the hospital to
correctly reflect the facility place-of-service code.

2
    Section 1848(a)(1) of the Social Security Act, 42 U.S.C. § 1395w-4(a)(1).


                                                       4
Conclusion

As the Hospital has refunded $146,125 to NHIC of the $208,486 overpayment total that
we determined, the Hospital still owes $62,361 to complete the refund of its
overpayments.

RECOMMENDATION

We recommend that NHIC:

   •   accept the Hospital’s final payment of $62,361 to complete its refund of $208,486
       for overpayments resulting from coding errors on claims submitted on behalf of
       Hospital physicians for CYs 2004 through 2007.



NATIONAL HERITAGE INSURANCE CORPORATION COMMENTS


NHIC concurred with our recommendation and accepted the agreed upon final payment
of $62,361. NHIC’s comments are included in their entirety as the Appendix.




                                           5
APPENDIX
APPENDIX: NATIONAL HERITAGE INSURANCE CORPORATION COMMENTS
                                                    Page 1 of 1
                                                                                                                             NHIC, Corp.
                                                                                      MEDICARE ADMINISTRATIVE CONTRACTOR
                                                                                                    JURISDICTION 14 A/B MAC


October 20, 2010

Department of Health and Human Services
Office of the Inspector General
Region I
John F Kennedy Federal Building
Room 2425
Boston, MA 02203

RE: OIG Audit: “Verification of Mid Coast Hospital’s Refund of Place of Service Overpayments for Calendar Years
2004-2007 (A-01-10-00523)”- DRAFT REPORT

Dear Mr. Armstrong:
NHIC has reviewed the draft report provided to us by the OIG, and we concur with the OIG’s recommendation. As
noted in your report, NHIC was unable to formally demand refunds from Mid Coast Hospital as it was determined
that overpayments related to the 2004 through 2006 claims were archived and no longer available in our active
files. Additionally, the majority of the claims for the period April 1, 2004 to December 2006 were not within the
required 4 year reopening period. Therefore, collections on claims prior to December 2006 could not occur.

Since June 15, 2010, NHIC has been working with Andrea J. Rousseau of the OIG to accept Mid Coast Hospital’s
offer to repay the overpayments. The OIG determined the total Medicare overpayments resulting from place-of-
service coding errors was $208,486 for the period April 2004 through December 31, 2007. As Mid Coast had
already paid NHIC six checks totaling $146,125, the remaining amount to be refunded to NHIC was $62,361.

On September 7, 2010, NHIC deposited the agreed upon final payment of $62,361 from Mid Coast Hospital. It
posted to the account on September 14, 2010. This completes the refund of overpayments resulting from coding
errors on claims submitted on behalf of Mid Coast Hospital physicians for calendar years 2004 through 2007.

If you have any questions or comments, please contact me at 530-332-1169 or via email at jennifer.otten@hp.com,
or the assigned project leader, Dorothy Auriemma at (781) 741-3163 (dorothy.auriemma@hp.com).

Sincerely,

Jennifer Otten
s/Jennifer Otten
NHIC Audit & Controls Manager

cc:	         Robert Harrington, NHIC, Corp.
             Lindsey Kittrell, CMS




                                                                        NHIC, Corp.
                                                                         402 Otterson Drive
                                                                           Chico, CA 95928
                                                                        A CMS CONTRACTOR

Document Name: NHIC-CMS Letterhead                                                                                                         Document No: TMP-ADM-0018
Release Date: 07/06/2010                                                                                                                   Version: 1.0
The controlled version of this document resides on the NHIC Quality Portal (SharePoint). Any other version or copy, either electronic or paper, is uncontrolled and must be
destroyed when it has served its purpose.
